GR-80-98-012
U.S. DEPARTMENT OF JUSTICE
 

AUDIT REPORT
 
Use of Equitable Sharing
Cash and Property by the 
City of Dallas, Texas,  Police Department
GR-80-98-012
 
March 31, 1998
 

EXECUTIVE SUMMARY
 
The U.S. Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit on the use of equitable sharing cash and property
by the City of Dallas, Texas, Police Department. The audit was requested by the Criminal
Division, Asset Forfeiture and Money Laundering Section, DOJ.
The Dallas Police Department (Dallas PD) received a total of $2,473,186 in
cash and property from October 1, 1994, through June 30, 1997, which was our audit period.

Generally, the Dallas PD properly accounted for the funds received from
the U.S. Marshals Service. However, we found the following conditions during our audit:

Leased office space of $813,280 is questioned, as the City of Dallas did
    not have documentation to show when equitable sharing funds were first used or that the
    lease costs were not supplanted with equitable sharing funds. 

Internal controls over equitable sharing funds could be improved.